TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Affordable Care Act: Implementation of
                     Key Information Reporting Provisions



                                          March 29, 2013

                              Reference Number: 2013-43-033




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                    HIGHLIGHTS


AFFORDABLE CARE ACT:                                   planning efforts should identify the relationships
IMPLEMENTATION OF KEY                                  among the various tax and information reporting
INFORMATION REPORTING                                  provisions. The IRS must ensure that all the
PROVISIONS                                             information needed to accurately and effectively
                                                       administer these provisions is provided by
                                                       employers, insurers, and taxpayers. By doing
Highlights                                             so, the IRS can significantly improve its ability to
                                                       manage the burden placed on employers,
                                                       insurers, and taxpayers who must comply with
Final Report issued on March 29, 2013                  the various Affordable Care Act requirements as
                                                       well as improve its ability to accurately
Highlights of Reference Number: 2013-43-033            administer Affordable Care Act fees, penalties,
to the Internal Revenue Service Deputy                 and tax credits.
Commissioner for Services and Enforcement.
                                                       Therefore, the IRS should consider collecting
IMPACT ON TAXPAYERS                                    additional third-party information that could
The Patient Protection and Affordable Care Act         expand its ability to ensure taxpayer compliance
of 2010 and the Health Care and Education              with the Affordable Care Act provisions and
Reconciliation Act of 2010 (collectively referred      requirements. Creating separate
to as the Affordable Care Act) were signed into        implementation plans and assigning
law in March 2010. Revenue provisions                  responsibility to different IRS offices may result
contained in the legislation are designed to           in the IRS not evaluating these provisions
generate $438 billion to help pay for the overall      collectively to ensure that it is requesting all the
cost of health care reform. More than 40 of            information needed to effectively verify
these provisions added to or amended the               employer, insurance provider, and individual
Internal Revenue Code and represent the                compliance with the Affordable Care Act.
largest set of tax law changes the IRS has had         WHAT TIGTA RECOMMENDED
to implement in more than 20 years.
                                                       TIGTA recommended that the IRS update the
WHY TIGTA DID THE AUDIT                                implementation plan for Provision 9002 to
This audit is part of TIGTA’s strategy to monitor      identify the actions needed to verify that
the IRS’s implementation of the Affordable Care        employers are accurately reporting the total
Act. The overall objective of this review was to       dollar value of health insurance coverage
determine whether the IRS is effectively               provided to an employee. The IRS should also
implementing select Affordable Care Act                ensure that all information necessary to
reporting requirements.                                maximize the IRS’s ability to verify compliance
                                                       with other tax-related provisions within the
WHAT TIGTA FOUND                                       Affordable Care Act is requested from third
                                                       parties and processes are developed to use the
The IRS continues to make progress in                  information effectively.
implementing the information reporting
requirements relating to Provisions 1502, 1514,        The IRS agreed with our recommendations.
9002, and 9010 of the Affordable Care Act.             IRS officials stated that the IRS has updated the
However, the implementation plan for                   Compliance Plan for Provision 9002 to include
Provision 9002 that requires the inclusion of          steps for verifying reporting compliance. The
employer health coverage on Form W-2, Wage             IRS also indicated that executive oversight by
and Tax Statement, does not address how the            the Director, Affordable Care Act Office, and the
IRS will use the information and how the IRS will      Director, Implementation Oversight and
ensure employer compliance with this                   Non-Exchange Provisions, ensures that the
information reporting provision.                       overall planning for all Affordable Care Act
                                                       provisions, including the ones affecting
Many of the tax provisions included in the             information reporting, is coordinated.
Affordable Care Act are interrelated. As such,
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                March 29, 2013


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                        Michael E. McKenney
                              Acting Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Affordable Care Act: Implementation of
                              Key Information Reporting Provisions (Audit # 201240322)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) is effectively implementing select Affordable Care Act1 reporting requirements. This audit
 is part of the Treasury Inspector General for Tax Administration strategy to monitor the IRS’s
 implementation of the Affordable Care Act. It is included in our Fiscal Year 2013 Annual Audit
 Plan and addresses the major management challenge of Implementing the Affordable Care Act
 and Other Tax Law Changes.
 Management’s complete response to the draft report is included in Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Russell P. Martin, Acting
 Assistant Inspector General for Audit (Returns Processing and Account Services).




 1
  The Patient Protection and Affordable Care Act of 2010, Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as
 amended in scattered sections of the U.S. Code), as amended by the Health Care and Education Reconciliation Act
 of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
                                            Affordable Care Act: Implementation
                                          of Key Information Reporting Provisions




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Implementation of Information Reporting Is Progressing;
          However, Improvements Are Needed to Ensure
          Compliance With Affordable Care Act Provisions ...................................... Page 4
                    Recommendation 1:........................................................ Page 9

                    Recommendation 2:........................................................ Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Glossary of Terms ................................................................ Page 15
          Appendix V – Management’s Response to the Draft Report ....................... Page 16
           Affordable Care Act: Implementation
         of Key Information Reporting Provisions




              Abbreviations

IRS     Internal Revenue Service
TIGTA   Treasury Inspector General for Tax Administration
                                     Affordable Care Act: Implementation
                                   of Key Information Reporting Provisions




                                           Background

The Patient Protection and Affordable Care Act of 20101 and the Health Care and Education
Reconciliation Act of 20102 (collectively referred to as the Affordable Care Act) were signed
into law in March 2010. Together they contain more than 500 provisions intended to make
health insurance more affordable and available to individuals. The Affordable Care Act will
impact every aspect of health care for individuals, employers, insurers, hospitals and medical
personnel, health and tax practitioners, health advocacy groups, and other health providers.
Revenue provisions contained in the legislation are designed to generate $438 billion to help pay
for the overall cost of health care reform.3
More than 40 of the 500 provisions added to or amended the Internal Revenue Code. The tax
provisions provide incentives and tax breaks to individuals and small businesses to offset health
care expenses. They also impose penalties for individuals and businesses that do not obtain
health care coverage for themselves or their employees. For example, one provision of the
Affordable Care Act is the requirement for individuals to maintain minimum essential health care
coverage or face a continuous penalty. The penalty will be imposed on any taxpayer who, for
any month after Calendar Year 2013, fails to maintain minimum essential health care coverage.4

The Affordable Care Act establishes new reporting requirements for employers
and health insurance providers
The Affordable Care Act includes provisions that establish new information return reporting and
sharing requirements for third parties (e.g., employers and health insurers) and the Health
Insurance Exchanges (the Exchanges). The reported information will be used to administer the
Advance Premium Tax Credit,5 the individual mandate to obtain health insurance, and the
employer minimum essential coverage requirement. The Internal Revenue Service (IRS) has
also been given the authority to share certain tax data with other Federal and State agencies to be
used to determine eligibility for the Advance Premium Tax Credit. Implementing these reporting
provisions will require the IRS to engage external stakeholders, develop internal and external

1
  Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code), as
amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029 (2010).
2
  Pub. L. No. 111-152, 124 Stat. 1029 (2010).
3
  Joint Committee on Taxation, JCX-17-10, Estimated Revenue Effects of the Amendment in the Nature of a
Substitute to H.R. 4872, the “Reconciliation Act of 2010,” as Amended, in Combination With the Revenue Effects
of H.R. 3590, the “Patient Protection and Affordable Care Act (‘PPACA’),” as Passed by the Senate, and Scheduled
for Consideration by the House Committee on Rules on March 20, 2010 (Mar. 20, 2010).
4
  See Appendix IV for a glossary of terms.
5
  The Advance Premium Tax Credit subsidizes the purchase of certain health insurance plans obtained through an
Exchange. The credit is refundable and payable in advance directly to the insurer.
                                                                                                        Page 1
                                      Affordable Care Act: Implementation
                                    of Key Information Reporting Provisions



 education and outreach initiatives, develop formal and informal guidance including forms and
 publications, and develop systems and processes to receive and use the information provided.
 Figure 1 identifies these key information reporting provisions.
          Figure 1: Key Affordable Care Act Information Reporting Provisions

                         Effective Date of the
     Provision         Reporting Requirements                                     Details

 1502: Reporting of    Businesses and individuals      Requires that every business and individual who provides
 Health Insurance      are required to file a health   “minimum essential coverage” to any individual during a
 Coverage (Internal    insurance report for            calendar year report to the IRS certain health insurance
 Revenue Code          Calendar Year 2014 in           information. This information includes the names of the
 Section 6055).        January 2015.                   individuals obtaining health coverage, the dates of health
                                                       coverage, and whether the coverage is a qualified health
                                                       plan offered through an Exchange.

 1514: Reporting of    Large employers are             Requires large employers (average 50 full-time equivalent
 Employer Health       required to report on the       employees in the preceding calendar year) to file an
 Insurance             availability of minimum         information return with the IRS to report whether they
 Coverage (Internal    essential coverage during       offer their employees and their dependents the
 Revenue Code          Calendar Year 2014 in           opportunity to enroll in minimum essential health care
 Section 6056).        January 2015.                   coverage, the period an employee must wait to become
                                                       enrolled, and information regarding those employees who
                                                       are enrolled in such coverage. The employers must also
                                                       provide full-time employees a copy of the information
                                                       returns they provide to the IRS.

 9002: Inclusion of    Large employers are             Requires large employers to report the total dollar value
 Employer Health       required to report for          of health insurance coverage sponsored by the employer
 Coverage on           Calendar Year 2012 on           on each employee’s annual Form W-2. Although this
 Form W-2, Wage        Forms W-2 distributed in        information is included on the Form W-2, the amount
 and Tax Statement     January 2013. Employers         reported is not counted as taxable income.
 (Internal Revenue     that are not considered
 Code Section          large employers are not
 6051).                required to report prior to
                       January 2014.

 9010: Imposition of   Health insurance providers      Imposes an annual fee on health insurance providers
 Annual Fee on         are required to file a net      whose net premiums written during the calendar year
 Health Insurance      premiums report for             exceed $25 million. The annual fee requirement will
 Providers.            Calendar Year 2013 in           begin no later than September 30, 2014. Each insurance
                       May 2014.                       provider is responsible for filing a premiums report with
                                                       the IRS. Failure to file the report will generally result in an
                                                       assessed penalty of $10,000 plus the lesser of $1,000
                                                       times the number of days the report is not filed timely or
                                                       the amount of the fee required to be paid by the health
                                                       insurance provider.

Source: Affordable Care Act.

                                                                                                             Page 2
                                 Affordable Care Act: Implementation
                               of Key Information Reporting Provisions



This review was performed in the IRS’s Affordable Care Act Office in Washington, D.C., during
the period August through December 2012. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                           Page 3
                                     Affordable Care Act: Implementation
                                   of Key Information Reporting Provisions




                                     Results of Review

Implementation of Information Reporting Is Progressing; However,
Improvements Are Needed to Ensure Compliance With Affordable
Care Act Provisions
In June 2012, the Treasury Inspector General for Tax Administration (TIGTA) reported that the
IRS had developed appropriate plans to implement key Affordable Care Act reporting
provisions.6 These plans address the development of tax forms, instructions, and publications;
employee training; outreach and guidance to taxpayers and preparers; and computer
programming and data needs. During this review, we determined that the IRS has continued to
make progress in implementing the information reporting requirements relating to Affordable
Care Act Provisions 1502, 1514, 9002, and 9010.
However, the implementation plan for Provision 9002 does not address how the IRS will ensure
employer compliance with the reporting requirement. Additional third-party information could
expand the IRS’s ability to ensure taxpayer compliance with the Affordable Care Act provisions
and requirements.

Implementing Affordable Care Act information reporting requirements is
progressing
Since June 2012, the IRS has continued its efforts to ensure that it is ready to implement
Affordable Care Act Provisions 1502, 1514, 9002, and 9010 by:
       Updating Form W-2 to include a box for employers to report the total dollar value of
        health insurance coverage provided to an employee. The form and related instructions
        for preparing the form were also updated and posted to the IRS website (www.IRS.gov).
       Identifying the information employers and insurers are required to provide for each of the
        provisions and developing draft tax forms that will be used to report this information to
        the IRS. The IRS also implemented two tiers of review for each of the draft tax forms
        developed. The first level of review, conducted by the Tax Forms and Publications
        function, identifies the forms, publications, and instructions that need to be revised to
        fulfill the legislative requirements. The second level of review is the business assessment


6
 TIGTA, Ref. No. 2012-43-064, Affordable Care Act: Planning Efforts for the Tax Provisions of the Patient
Protection and Affordable Care Act Appear Adequate; However, the Resource Estimation Process Needs
Improvement (June 2012).
                                                                                                        Page 4
                                  Affordable Care Act: Implementation
                                of Key Information Reporting Provisions



       completed by subject matter experts in the business area aided by the Tax Forms and
       Publications function.
      Developing processes to receive information required to be reported by employers and
       insurers. For example, the IRS developed processes to successfully receive the revised
       Forms W-2 from 18,513 large employers required to report the total dollar value of health
       insurance coverage provided to the individuals they employ on their Forms W-2.
      Developing and administering outreach and educational initiatives to provide information
       relating to these provisions to outside stakeholders. For example, the IRS provided an
       IRS webinar and developed a YouTube video on Reporting of Employer Health Care
       Coverage on Form W-2. The IRS plans to provide similar information for the other
       provisions using PowerPoint presentations, YouTube videos, and webinars.
      Developing training and additional guidance for IRS employees on the information
       reporting requirements relating to these provisions. For example, the IRS plans to
       develop and conduct training for IRS employees on these new provisions, including how
       to assist employers and insurers in complying with the reporting guidelines.
In addition, the IRS has identified the information system support needed to receive the
information reported by employers and insurers, and it is in the process of developing the
computer systems necessary to process and use this information.
The time frame for implementing Provision 9010 increases the risk of incorrectly computing
annual fees
Our review identified concerns regarding the time frames the IRS has established for
implementing Provision 9010. Provision 9010 imposes an annual fee on health insurance
providers whose net premiums written during the calendar year exceed $25 million. The IRS is
required to apportion $8 billion in annual fees among all health insurance providers whose net
premiums for health insurance policies issued during Calendar Year 2013 exceed $25 million.
The amount of the annual fee for each insurer is determined based on a ratio of the insurer’s net
premiums written compared to total net premiums of all insurers written during the previous
calendar year. The annual fee requirement will begin no later than September 30, 2014.
The IRS will use the information returns required by Provision 9010 to apportion the $8 billion.
The IRS does not plan to require health insurance providers to file these information returns until
May 1, 2014, and does not plan to notify the insurers of the preliminary calculation of the annual
fee until June 15, 2014. It plans to mail notices for the final annual fee calculation to insurers no
later than August 31, 2014.
This timeline allows the IRS only four months to process preliminary fee determinations and any
corrections to collect the $8 billion in fees for Fiscal Year 2014. The IRS is aware of the risk of
incorrect annual fee assessments created by the compressed planned implementation timeline.
However, the IRS responded that it must balance the need to provide health insurance providers

                                                                                              Page 5
                                   Affordable Care Act: Implementation
                                 of Key Information Reporting Provisions



adequate time to comply with the reporting requirement with the need to provide insurers
adequate time to pay the annual fee by September 30, 2014. IRS management believes their
implementation timeline will provide the balance needed and is taking steps to develop processes
to timely verify that all health insurance providers have filed an information return as required.
We plan to perform a subsequent review of the implementation of Provision 9010 as part of our
continued audit coverage of the Affordable Care Act.

The implementation plan for Provision 9002 does not include the actions the IRS
plans to take to ensure that large employers comply with reporting requirements
Most of the implementation plans appropriately address the processes needed to receive and use
Affordable Care Act reporting information and include the steps needed to identify
noncompliance with the provisions. Figure 2 shows the results of our analysis of the IRS’s plans
and whether the plans include actions to receive and use information and monitor compliance
with the respective provision.
                 Figure 2: Evaluation of the IRS’s Plans to Receive and
                Use Information and Monitor Compliance With Provisions

                      Plan Addresses
                      Development of            Plan Addresses How the         Plan Addresses Steps
                    Processes Needed to          Information Received          to Be Taken to Identify
    Provision       Receive Information               Will Be Used                 Noncompliance

      1502                                                                                
      1514                                                                                
      9002                                                  X                              X
      9010                                                                                
 Source: TIGTA analysis of IRS planning documents for Affordable Care Act Provisions 1502, 1514, 9002, and
 9010.

Only the plan for Provision 9002 excludes how the IRS will use the information being reported
or how it will ensure that large employers comply with the law. The IRS acknowledges that
there is a risk employers may miscalculate the cost of health care or simply not report the
information required under Provision 9002. Nevertheless, the implementation plan does not
include steps to ensure that employers report the information as required or to ensure that the
information reported on Forms W-2 is accurate. Without this information, the IRS reduces its
ability to verify eligibility compliance with other Affordable Care Act provisions. For example,
the IRS can use the information reported on Forms W-2 to verify individuals’ compliance with
the individual health insurance mandate. In addition, information reported on Forms W-2 can
also be used to identify individuals not eligible for the Premium Tax Credit because the
individual has employer-paid health care coverage.

                                                                                                     Page 6
                                   Affordable Care Act: Implementation
                                 of Key Information Reporting Provisions



IRS management indicated that the information reported on Forms W-2 is solely for the purpose
of providing consumer awareness. As such, the IRS does not consider reporting compliance for
this provision as a high priority. Because the reporting was optional for all employers for
Calendar Year 2011 and remains so for many employers for Calendar Year 2012, IRS
management indicated it may reassess this risk after the 2014 Filing Season.

Opportunities exist to increase the efficiency and effectiveness of the IRS’s use
of the information reported in verifying compliance with the Affordable Care Act
The IRS plans to use the information from Provisions 1502, 1514, and 9010 to cross-verify
compliance with various tax provisions the IRS is responsible for administering. The IRS has
developed a separate implementation plan for each of the information reporting provisions and
has assigned responsibility for implementation to different IRS functions. Figure 3 shows the
IRS functional area responsible for implementing the specific provisions.
                    Figure 3: IRS Functional Areas Responsible for
                  Implementing Key Information Reporting Provisions

        Affordable Care Act Provision                         IRS Function
                      1502                              Affordable Care Act Office
                      1514                              Affordable Care Act Office
                      9002                        Small Business/Self-Employed Division
                      9010                       Large Business and International Division
       Source: IRS Affordable Care Act Office.

However, creating separate implementation plans and assigning responsibility to different IRS
offices may result in the IRS not evaluating these provisions collectively to ensure that it is
requesting all the information needed to effectively verify employer, insurance provider, and
individual compliance with the Affordable Care Act. For example, requiring employers to
provide the name of their employee health insurance plan provider as part of Provision 1514 and
the amount of health insurance premiums associated with individuals covered under a qualified
health plan as part of Provision 1502 would improve the IRS’s ability to ensure that all health
insurance providers are submitting information returns under Provision 9010 and are, therefore,
accurately assessed the annual fee.
However, the draft information return for Provision 1514 does not require employers to provide
the name of their employee health insurance plan provider, and the draft information return for
Provision 1502 does not require insurers to provide the amount of premiums written for
employees covered by a qualified health plan.
Figure 4 provides an outline of the information currently required by each reporting provision
and additional information that may improve the IRS’s ability to ensure compliance.

                                                                                             Page 7
                                     Affordable Care Act: Implementation
                                   of Key Information Reporting Provisions



          Figure 4: Information Currently Required to Be Reported to the IRS
            and Additional Information That Could Improve the IRS’s Ability
              to Ensure Compliance With Affordable Care Act Provisions

                                                                                    Additional Information
                                                                                    That if Requested May
                                                                                      Improve Ability to
                Reporting                                                            Ensure Compliance
Provision         Party            Information Required to Be Reported                 With Provisions

                                Names of the individuals obtaining health         Total premiums written
             Health
                                coverage, dates of health coverage, and           associated with qualified
1502         insurance
                                whether the health coverage is a qualified        coverage provided by the
             providers.
                                health plan offered through an Exchange.          insurer.

                                Whether the company offers its employees
                                and their dependents the opportunity to
             Employers with
                                enroll in minimum essential health care
             more than                                                            Name of the insurance
                                coverage, the period an employee must wait
             50 full-time                                                         provider used by the
1514                            to become enrolled, and information
             equivalents in                                                       employer to provide group
                                regarding those employees who are enrolled
             the previous                                                         health coverage.
                                in such coverage. The employer must also
             year.
                                provide full-time employees a copy of the
                                information return it provides to the IRS.

             Employers with
             more than 250      The total dollar value of health insurance
                                                                                  No additional information
9002         Forms W-2 in       coverage sponsored by the employer on
                                                                                  needed.
             the previous       each employee’s annual Form W-2.
             year.

             Health             A premiums report that includes the covered
                                                                                  No additional information
9010         insurance          entity’s net premiums written during the fee
                                                                                  needed.
             providers.         year.

Source: TIGTA analysis of Provisions 1502, 1514, 9002, and 9010 of the Affordable Care Act.

Figure 5 shows how the information received from the four information reporting provisions can
be used collectively to verify compliance with other tax provisions in the Affordable Care Act.




                                                                                                      Page 8
                                    Affordable Care Act: Implementation
                                  of Key Information Reporting Provisions



                              Figure 5: Use of Information
                        From Provisions 1502, 1514, 9002, and 9010




  Source: TIGTA analysis of Provisions 1502, 1514, 9002, and 9010 of the Affordable Care Act.

Tax provisions included in the Affordable Care Act represent the largest set of tax law changes
the IRS has had to implement in more than 20 years. Many of the tax provisions are interrelated.
As such, the IRS must ensure that its planning efforts identify the relationships among the
various tax and information reporting provisions. The IRS must then ensure that all the
information needed to accurately and efficiently administer these provisions is provided either by
employers, insurers, or taxpayers. By doing so, the IRS can significantly improve its ability to
manage the burden placed on employers, insurers, and taxpayers who must comply with the
various Affordable Care Act requirements as well as improve its ability to accurately administer
Affordable Care Act fees, penalties, and tax credits.

Recommendations
The Deputy Commissioner for Services and Enforcement should:
Recommendation 1: Update the Provision 9002 implementation plan to identify the actions
needed to verify that employers are accurately reporting the aggregate cost of health insurance
coverage provided to an employee.



                                                                                                Page 9
                                Affordable Care Act: Implementation
                              of Key Information Reporting Provisions



       Management’s Response: IRS management agreed with this recommendation.
       During TIGTA’s audit fieldwork, the IRS was in the process of updating the Compliance
       Plan for Provision 9002. The Compliance Plan includes steps to verify reporting
       compliance, which is standard practice during audits. The IRS’s prior plan did not
       include these steps because the reporting was optional for all employers for Calendar
       Year 2011 and for many employers for Calendar Year 2012.
Recommendation 2: Evaluate the planning efforts for Provisions 1502, 1514, 9002, and 9010
to ensure that all IRS functions coordinate the planning for implementation of the information
reporting provisions of the Affordable Care Act. Coordination should include ensuring that all
information necessary to maximize the IRS’s ability to verify compliance with other tax-related
provisions within the Affordable Care Act is requested from third parties and processes are
developed to use the information effectively.
       Management’s Response: IRS management agreed with this recommendation.
       While management responsibility for the provisions TIGTA audited was placed in
       various functions (depending on the stakeholder impacted), executive oversight by the
       Director, Affordable Care Act Office, and the Director, Implementation Oversight and
       Non-Exchange Provisions, ensures that the overall planning for all Affordable Care Act
       provisions, including the ones affecting information reporting, is coordinated.
       Additionally, issues and decisions affecting multiple functions and operating divisions
       are discussed at monthly Affordable Care Act Executive Steering Committee meetings
       and during the biweekly Affordable Care Act Coordinating Committee meetings.




                                                                                        Page 10
                                     Affordable Care Act: Implementation
                                   of Key Information Reporting Provisions



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS is effectively implementing select
Affordable Care Act1 reporting requirements. To accomplish this objective, we:
I.      Evaluated whether the IRS has identified and scheduled actions necessary to implement
        Affordable Care Act Provisions 1502, 1514, 9002, and 9010.
        A. Determined whether the IRS has identified all actions necessary to implement the
           provisions and determined whether the IRS will complete actions timely. We did this
           by contacting responsible parties in the Affordable Care Act Office to discuss what
           steps have been taken to identify the actions needed to implement the selected
           Affordable Care Act provisions.
             1. Determined whether the selected provisions require revisions or development of
                new forms, schedules, instructions, and publications.
             2. Determined whether the selected provisions would require IRS employees to
                receive early and/or additional training to ensure that all outside inquiries receive
                the proper response.
             3. Determined whether the IRS included an evaluation of the risk of fraud associated
                with the implementation of the selected provisions and included the actions
                necessary to address that risk in its implementation plan.
        B. Assessed the adequacy of the IRS’s plans to obtain and use the information returns
           required to be provided to the IRS.
             1. Reviewed the reporting requirements created by the Affordable Care Act for the
                selected provisions to identify what information will be required to be reported
                and the taxpayers affected by the reporting requirements.
             2. Determined whether new processes are required to be developed to receive and
                use the reporting information provided to the IRS.
             3. Identified steps taken – either planned or completed – to update IRS processes
                and systems to enable taxpayers to submit required information and for the IRS to
                receive and use it.

1
 The Patient Protection and Affordable Care Act of 2010, Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as
amended in scattered sections of the U.S. Code), as amended by the Health Care and Education Reconciliation Act
of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
                                                                                                        Page 11
                                 Affordable Care Act: Implementation
                               of Key Information Reporting Provisions



II.    Evaluated whether guidance developed and/or issued for the selected reporting provisions
       was accurate.
       A. Identified all draft and published guidance produced by the IRS relating to the
          selected provisions.
       B. Assessed whether guidance provided to taxpayers and practitioners accurately reflects
          the requirements promulgated by the Affordable Care Act.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the controls in place to ensure that the IRS
is meeting implementation dates for the Affordable Care Act reporting provisions. We evaluated
the controls by reviewing the planning process used to implement Provisions 1502, 1514, 9002,
and 9010 of the Affordable Care Act.




                                                                                            Page 12
                              Affordable Care Act: Implementation
                            of Key Information Reporting Provisions



                                                                            Appendix II

                Major Contributors to This Report

Russell P. Martin, Acting Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Acting Inspector General for Audit (Compliance and Enforcement Operations)
Deann Baiza, Director
Sharla Robinson, Audit Manager
Linna K Hung, Lead Auditor
Linda L Bryant, Senior Auditor
Denise Gladson, Auditor




                                                                                   Page 13
                               Affordable Care Act: Implementation
                             of Key Information Reporting Provisions



                                                                              Appendix III

                          Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large Business and International Division SE:LB
Commissioner, Small Business/Self-Employed Division SE:S
Director, Affordable Care Act Office SE:ACA
Director, Compliance Strategy and Policy, Affordable Care Act Office SE:ACA
Director, Filing and Premium Tax Credit Strategy, Affordable Care Act Office SE:ACA
Director, Pre-Filing and Technical Guidance, Large Business and International Division
SE:LB:PFTG
Director, Specialty Programs, Small Business/Self-Employed Division SE:S:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Affordable Care Act Office SE:ACA




                                                                                         Page 14
                                Affordable Care Act: Implementation
                              of Key Information Reporting Provisions



                                                                                 Appendix IV

                              Glossary of Terms

            Term                                          Definition

Calendar Year                   The 12-consecutive-month period ending on December 31.
Filing Season                   A 12-consecutive-month period ending on the last day of any
                                month, except December. The Federal Government’s fiscal
                                year begins on October 1 and ends on September 30.
Full-Time Equivalent            A measure of labor hours in which one full-time equivalent
                                is equal to eight hours multiplied by the number of
                                compensable days in a particular fiscal year.
Health Insurance Exchange       A Health Insurance Exchange is a set of State-regulated and
                                standardized health care plans from which individuals may
                                purchase health insurance.
Individual Health Insurance     Individuals who do not obtain health insurance will be
Mandate                         subject to a penalty. The individual health insurance
                                mandate requires individuals to maintain minimum essential
                                health insurance coverage.
Information Return              A tax document that businesses are required to file to report
                                certain business transactions to the IRS.
Premium Tax Credit              A refundable and advanceable credit to assist individuals in
                                purchasing affordable health insurance.
Tax Year                        The 12-month period for which tax is calculated. For most
                                individual taxpayers, the tax year is synonymous with the
                                calendar year.
Webinar                         A seminar or other presentation that takes place on the
                                Internet that allows participants in different locations to see
                                the presenters and ask questions.




                                                                                          Page 15
             Affordable Care Act: Implementation
           of Key Information Reporting Provisions



                                                     Appendix V

Management’s Response to the Draft Report




                                                          Page 16
  Affordable Care Act: Implementation
of Key Information Reporting Provisions




                                          Page 17
